                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                         Compliance Followup Review of
                                        Broadcasting Board of Governors’
                                             Operations, Thailand

                                            Report Number ISP-IB/C-12-34, June 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                  PURPOSE, SCOPE, AND METHODOLOGY
                 OF THE COMPLIANCE FOLLOWUP REVIEW

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Compliance Followup Reviews (CFR) cover three broad areas, consistent with
Section 209 of the Foreign Service Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented;
       and whether all elements of an office or mission are being adequately coordinated.
       In accordance with the U.S. International Broadcasting Act of 1994 (P.L. 103-236)
       Section 304(a) (3) (B), OIG is prohibited from evaluating the content of BBG
       broadcasting entities. The section, entitled “Respect for Journalistic Integrity of
       Broadcasters,” states that “The Inspector General shall respect the journalistic
       integrity of the broadcasters covered by this title and may not evaluate the
       philosophical or political perspectives reflected in the content of broadcasts.”

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

        The Office of Inspections may perform on-site CFRs to verify whether agreed-upon
corrective actions for recommendations issued in previous reports were fully and properly
implemented and to provide OIG with a quality assurance assessment of its work.

METHODOLOGY

        In conducting this CFR, the inspectors have: 1) reviewed the previous inspection report and
the reported corrective actions; 2) distributed survey instruments to inspected entity(s) and
compiled and analyzed the results to measure and report changes in the period between the
previous inspection and this CFR; 3) conducted on-site interviews and reviewed and collected
documentation to substantiate reported corrective actions; 4) addressed new, significant

                                          i
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

deficiencies or vulnerabilities identified in the CFR survey results and during the course of the on-
site CFR and, where appropriate, issued new recommendations; and, 5) discussed the substance of
the draft CFR report at the final meeting with the head of the inspected bureau/office or post.




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                               Table of Contents
Key Judgments                                                      1
Background                                                         2
Evaluation of Compliance                                           3
Udorn Facility                                                     4
Regional Marketing and Program Placement Office                    5
List of Compliance Followup Review Recommendations                 6
Abbreviations                                                      7
APPENDIX I: Status of 2011 Inspection Formal Recommendations       8
APPENDIX II: Status of 2011 Inspection Informal Recommendations   11




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   Responsible entities in both Washington and Thailand complied with the majority of the
    formal and informal recommendations in the Office of Inspector General’s (OIG) March
    2011 inspection report on the operations of the Broadcasting Board of Governors (BBG) in
    Thailand. Some important issues still need to be addressed.

•   BBG is still conducting a strategic review of its operating and distribution platforms, the
    results of which would directly affect its operations in Thailand. (b) (5)




•   Despite (b) (5) problems, BBG operations in Thailand run well and have made
    improvements to the operation’s physical plant and processes.




All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The CFR took place in Washington, DC, between January 3 and 27, 2012; in Bangkok, Thailand,
between February 10 and 29, 2012; and in Udorn, Thailand, on February 21, 2012. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Background
        BBG operations in Thailand were inspected in fall 2010. The most important of several
recommendations was the need to resolve the future of the broadcasting station in Udorn in
northern Thailand. Embassy Bangkok was also inspected in 2010. That inspection was complex
and raised serious issues, generating a CFR to Embassy Bangkok in 2012. As the team was going
to be in Thailand, OIG included a CFR on the BBG operations there at the same time as the CFR
on Embassy Bangkok.

        BBG operations in Thailand remain much the same as described in the March 2011 OIG
report. BBG assets in Thailand include a large IBB transmitting station in Udorn in northeast
Thailand and a smaller station in Patchi, about a 2-hour drive from Bangkok. The Voice of
America and Radio Free Asia both operate news bureaus in Bangkok; a regional marketing and
program placement office, also in Bangkok, supports both by recruiting affiliates and placing
U.S. Government-supported programming on radio and television in East Asia and the Pacific.

        Only the CFR team’s security inspector traveled to Udorn and visited the offices of the
two Bangkok-based news bureaus. Other observations in this report are based on conversations
with staff of the various BBG-affiliated entities in and around Bangkok and in Washington.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
        The CFR team found that the majority of formal and informal recommendations from the
2011 report had been closed as implemented. A CFR automatically closes all formal and
informal recommendations from the inspection, but these may be reopened, revised, and/or
reissued by the CFR, as appropriate. A complete list of the compliance status of all formal
recommendations from the 2011 inspection is in Appendix I of this report. A complete list of the
compliance status of all informal recommendations from that inspection is in Appendix II of this
report.

       Of the seven formal recommendations in the 2011 report, four (Recommendations 2, 3, 5,
and 7) were closed prior to the CFR. The CFR team determined that these four recommendations
remained closed. The remaining three recommendations (Recommendations 1, 4, and 6) were
resolved/open before the CFR. Of those three recommendations, the CFR team closed
Recommendation 4 as implemented. Recommendation 1 on confirming that the plans for the
transmitting station comply with U.S. and Thai laws and regulations was reissued as CFR
Recommendation 1. Recommendation 6 on designating the Bangkok regional marketing and
program placement officer as a grants officer representative was reissued as CFR
Recommendation 4.

       Of the seven informal recommendations in the 2011 report, the CFR closed five
(Informal Recommendations 2, 3, 5, 6, and 7).(b) (5)

                    Informal Recommendation 4 on conducting annual refresher training on the
use of chemical/biological and smoke inhalation response equipment at the transmitting station
was reissued as CFR Recommendation 3.




                                          3
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Udorn Facility
        The biggest issue facing BBG operations in Thailand is the future of the transmitting
station in Udorn. A plan to privatize operations has been on hold for 2 years as BBG
headquarters in Washington is still considering the issue. Doubts about the future of the station,
as well as concerns about the future of international shortwave broadcasting in general, have
eroded morale at the station. According to the station’s American manager, these uncertainties
have also made it more difficult to recruit staff. This recommendation is reissued.

Recommendation CFR 1: The Broadcasting Board of Governors, as it finalizes its proposal for
the International Broadcasting Bureau Thailand Transmitting Station, should confirm that the
plan for implementation complies with U.S. and Thai laws and regulations. (Action: BBG)

        As detailed in the 2011 report, the transmitting station has become more efficient and
productive over the years. Though staffing has decreased, transmitting hours at the Udorn station
increased when other IBB transmitting stations closed and the Udorn station assumed their
workload. Maintenance and repair projects have proceeded. In 2011, the Udorn station
successfully completed three projects—replacing a voltage regulator, improving the antenna
drainage system, and maintaining and repairing the road. The station manager told the OIG CFR
team that he is expecting additional funding, before the end of March 2012, for two more
maintenance and repair projects. Staff members are hopeful that BBG’s willingness to put money
into such projects means headquarters intends to keep the station open.

       The Udorn station manager has continued to reduce the station’s inventory of assets. He
reduced the vehicle fleet by two, a tractor and a sedan, and sent unneeded residential furniture to
the embassy where it was used to furnish two embassy houses. Worn furniture was sold at
auction in Udorn. One of the two supervisors’ residences was removed from the housing
inventory when it was clear that the second supervisor would not be replaced. Deleting the
property also reduced station costs.
       (b) (5)




                                                            security office. This informal
recommendation is reissued as a formal recommendation.

Recommendation CFR 2: (b) (5)




        The local employee in the regional security office appointed to conduct training on the
use of the chemical/biological and smoke inhalation response equipment passed away 2 weeks
prior to the scheduled event. The training was not rescheduled. The Udorn station manager has
                                                4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

contacted the regional security officer at Embassy Bangkok to request chemical/biological
response equipment training in conjunction with a visit to Udorn (b) (5)
              This informal recommendation is revised and reissued as a formal
recommendation.

Recommendation CFR 3: The Broadcasting Board of Governors, in coordination with
Embassy Bangkok, should issue chemical/biological response equipment to the staff at the
International Broadcasting Bureau Thailand Transmitting Station and conduct annual refresher
briefings in the use of the equipment. (Action: BBG, in coordination with Embassy Bangkok)

Regional Marketing and Program Placement Office
        At the time of the CFR, BBG had not yet named a director for the regional marketing and
program placement office that supports Voice of America and Radio Free Asia in the East Asia
and Pacific region. Instead, Voice of America’s Asia coverage editor was overseeing its work on
an interim basis; he does not have grants training and does not envision needing it in his Voice of
America job. Until a new director is named for the marketing and program placement office and
OIG can confirm that the named individual has taken the required grants training, this
recommendation is reissued.

Recommendation CFR 4: The Broadcasting Board of Governors should require that the senior
procurement executive designate the Bangkok regional marketing and program placement officer
as a grants officer representative and ensure that he is properly trained for these duties. (Action:
BBG)




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Compliance Followup Review Recommendations
Recommendation CFR 1: The Broadcasting Board of Governors, as it finalizes its proposal
for the International Broadcasting Bureau Thailand Transmitting Station, should confirm that the
plan for implementation complies with U.S. and Thai laws and regulations. (Action: BBG)

Recommendation CFR 2: (b) (5)




Recommendation CFR 3: The Broadcasting Board of Governors, in coordination with
Embassy Bangkok, should issue chemical/biological response equipment to the staff at the
International Broadcasting Bureau Thailand Transmitting Station and conduct annual refresher
briefings in the use of the equipment. (Action: BBG, in coordination with Embassy Bangkok)

Recommendation CFR 4: The Broadcasting Board of Governors should require that the
senior procurement executive designate the Bangkok regional marketing and program placement
officer as a grants officer representative and ensure that he is properly trained for these duties.
(Action: BBG)




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG             Broadcasting Board of Governors

CFR             Compliance followup review

Department      U.S. Department of State

IBB             International Board of Broadcasters

OIG             Office of Inspector General




                             7
                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


APPENDIX I: Status of 2011 Inspection Formal
Recommendations
Recommendation 1: The Broadcasting Board of Governors, as it finalizes its proposal for the
International Broadcasting Bureau Thailand Transmitting Station, should confirm that the plan
for implementation complies with U.S. and Thai laws and regulations. (Action: BBG)

Pre-CFR Status: Resolved/open. BBG concurred with the OIG recommendation and said it
would inform OIG of any proposed changes in the status of the transmitting station and ensure
that the six issues addressed in the OIG report would be addressed if privatization proceeds.

CFR Findings: BBG’s most recent budget authorities have not contained any authorization to
restructure transmitting station operations in Thailand; privatization plans remain on hold
pending such authorization and the result of an ongoing examination by BBG of how to
maximize available media platforms. The lack of a decision on privatization and the ongoing
uncertainty about the future of transmitting station operations in Thailand (b) (5)
The recommendation is reissued as CFR Recommendation 1.

Recommendation 2: The International Broadcasting Bureau should update the position
description of position number N63-069 (currently assistant transmitter plant supervisor at the
Thailand transmitting station) and, if required, submit it to the Embassy Bangkok human
resources officer for processing in the Computer-Aided Job Evaluation system. (Action: IBB)

Pre-CFR Status: Closed.

CFR Findings: The CFR team confirmed that the Udorn station manager had reviewed,
updated, and submitted to the Embassy Bangkok human resources office in April 2011 a revised
position description for the assistant transmitter plant supervisor. The classification was not
changed as a result of the computer-aided job evaluation process. The recommendation is closed
as implemented.

Recommendation 3: The International Broadcasting Bureau should address concerns about
timeliness and correctness of payments to overseas staff. (Action: IBB)

Pre-CFR Status: Closed. The recommendation concerned late and incorrect payments, to
American staff of the Voice of America, processed through the Defense Finance and Accounting
Service. BBG took steps to identify and correct the causes of the problem.

CFR Findings: The Asia coverage coordinator for the Voice of America confirmed to the CFR
team that, since arriving in Thailand more than a year ago, he has received promptly all
payments due to him. No other American staff member brought any new problems to his
attention. The recommendation is closed as implemented.

Recommendation 4: Radio Free Asia should perform a review of remuneration for Bangkok
contractors and implement a plan for the contractors’ periodic salary reviews. (Action: RFA)


                                          8
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Resolved/open. BBG concurred with the recommendation and reported that at
the beginning of each fiscal year Radio Free Asia contractors in Bangkok receive updated
contracts, which may or may not involve an increase in remuneration. In its August 2011
compliance report BBG stated that Radio Free Asia would review Bangkok contractor
remuneration by September 30, 2011, and implement any resulting adjustments on October 1.

CFR Findings: The Radio Free Asia director confirmed that a review took place; he received a
slight increase, but there was no upward adjustment in payment for other Radio Free Asia
contractors. The recommendation is closed as implemented.

Recommendation 5: The Broadcasting Board of Governors should require that the senior
procurement executive review grant commitment of the Bangkok regional marketing and
program placement office and ratify any grant commitments that are determined to have been
unauthorized. (Action BBG)

Pre-CFR Status: Closed. BBG arranged for the senior procurement executive, with input from
the BBG Office of General Counsel, to review grants awarded by the Bangkok regional
marketing and program placement office and ratify any grant commitments determined to have
been unauthorized.

CFR Findings: The CFR team confirmed that the review took place and that grants deemed
unauthorized were submitted for subsequent ratification by the Office of Contracts. New grant
commitments are to be routed through the Office of Contracts for approval and signature to
avoid future problems. The recommendation is closed as implemented.

Recommendation 6: The Broadcasting Board of Governors should require that the senior
procurement executive designate the Bangkok regional marketing and program placement officer
as a grants officer representative and see that he is properly trained for these duties. (Action:
BBG)

Pre-CFR Status: Resolved/open. BBG concurred with the recommendation upon receiving
OIG’s assurance that BBG would retain the authority for signing grants in Washington while
devolving unto the regional marketing and program placement officer the responsibility—as a
grants officer representative—for monitoring grantee compliance with grant terms and
conditions. The Foreign Service Institute provides grants training online and in person.

CFR Findings: At the time of the CFR, BBG had not yet named a director for the regional
marketing and program placement office. Instead, Voice of America’s Asia coverage editor was
overseeing its work on an interim basis; he does not have grants training and does not envision
needing it in his Voice of America job. Until a new director is named for the regional marketing
and program placement office and OIG can confirm that the named individual has taken the
required grants training, this recommendation is reissued as CFR Recommendation 4.

Recommendation 7: Embassy Bangkok should provide basic safe haven supplies for the joint
regional marketing and program placement and Voice of America news bureau office in the
Millennia building. (Action: Embassy Bangkok)


                                          9
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Closed. The head of the regional marketing and program placement office
worked with the regional security officer to determine the appropriate supplies and began to
assemble basic supplies including water, first-aid kits, and flashlights.

CFR Findings: The CFR team confirmed that adequate stores and provisions are available at the
regional marketing and program placement and Voice of America news bureau office in the
Millennia building. This recommendation is closed as implemented.




                                         10
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


APPENDIX II: Status of 2011 Inspection Informal
Recommendations
Informal Recommendation 1: (b) (5)



CFR Findings: (b) (5)




Informal Recommendation 2: The International Broadcasting Bureau Thailand Transmitting
Station should send a technician to the regional marketing and program placement and Voice of
America joint office in the Millennia building in Bangkok at the earliest opportunity to return the
closed-circuit television system to full functionality, with a minimum investment of time and
resources, so that the staff can identify visitors prior to electronically buzzing them past the
hardline.

CFR Findings: Technicians from the Udorn transmitting station repaired all nonfunctioning
television cameras; the OIG security inspector confirmed that all closed-circuit television
cameras were operating as intended. This recommendation is closed as implemented.

Informal Recommendation 3: The International Broadcasting Bureau Thailand Transmitting
Station should subject all mail to pre-opening screening prior to bringing it into occupied
buildings.

CFR Findings: The CFR security inspector confirmed that all mail is prescreened before
bringing it into occupied buildings. This recommendation is closed as implemented.

Informal Recommendation 4: The International Broadcasting Bureau Thailand Transmitting
Station should conduct annual refresher briefings in the use of the provided chemical/biological
and smoke inhalation response equipment.

CFR Findings: The local employee in the regional security office, who was appointed to
conduct this training, passed away 2 weeks prior to the scheduled event. The training was not
rescheduled. The Udorn station manager has contacted the regional security officer at Embassy
Bangkok to request chemical/biological response equipment training (b) (5)
                                                    This informal recommendation is revised
and reissued as CFR Recommendation 3.




                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 5: The International Broadcasting Bureau Thailand Transmitting
Station should test the basic alarm function and conduct full participation drills on a schedule to
be determined by the regional security office.

CFR Findings: The CFR team confirmed that the alarms work at the transmitting station. The
station holds regular full participation drills. The regional security office in Embassy Bangkok
keeps a record of the drills. This recommendation is closed as implemented.

Informal Recommendation 6: The Radio Free Asia Bangkok news bureau should perform cash
counts on a random basis and the bureau should retain a copy of the verification.

CFR Findings: Radio Free Asia is a private nonprofit agency that receives BBG funding. As
such it has its own financial guidelines. The CFR team confirmed that Radio Free Asia performs
(b) (5)       cash reconciliation that is forwarded to its Washington headquarters. Per its
financial guidelines, the office director also performs random and unannounced (b) (5)      cash
reconciliation prepared by the bookkeeper. This recommendation is closed as implemented.

Informal Recommendation 7: The Radio Free Asia Bangkok news bureau should establish and
implement procedures for its inventory list to be updated regularly and a physical inventory
undertaken yearly.

CFR Findings: The Radio Free Asia office director maintains an excel spreadsheet on which he
lists all equipment held by the office. He reviews the list regularly to make sure it is accurate
and verifies annually that the inventory is correct. The office director told the CFR team that a
computerized data tracker installed by a representative from Radio Free Asia’s technology office
in Washington is not working properly, a failure that the OIG team believes needs to be
corrected in advance of the office’s planned move to a new location in late 2012. This
recommendation is closed as implemented.




                                          12
                              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
